OIG Audit Report

United States Marshals Service Intergovernmental Service Agreement for Detention Services with Anoka County, Minnesota
Office of the Inspector General



Executive Summary


The Office of the Inspector General, Audit Division, completed an audit of the Intergovernmental Service Agreement (IGA) between the United States Marshal Service (USMS) and Anoka County, Minnesota (County).  The IGA was initially approved in 1984 and modified in 1988 and 1991.  It was in effect during the audit period.  Additional audit scope, methodology and background information appears in Appendix I.
We reviewed the IGA between the County and the USMS to provide detention space at the Anoka County jail for federal prisoners.  We analyzed jail day billings to determine if the amounts claimed were accurate and that the day rate corresponded to the rate as stated in the IGA.  We performed tests of selected FY 1990 and 1996 costs to determine if the costs were allowable and were adequately supported.  Based on our review, we determined:

The County overbilled the USMS $140,667 ($29,649 in excess per diem payments in 1990 and $111,018 in excess per diem payments for 1996).
The USMS could save $118,042 in 1997.




 




Return to OIG Home Page